                         UNCLASSIFIED




             Office of Inspector General


                          Summary of
Review of Department of State Activities Concerning the Processing
 of Refugee Applications and the Provision of Refugee Benefits to
     Refugees Later Accused of Terrorism-Related Offenses



           Report Number ISP-I-12-22, May 2012




                         UNCLASSIFIED
                                      UNCLASSIFIED


SUMMARY

The following is a summary of a Sensitive But Unclassified Office of Inspector General (OIG)
report. For information on how to request a copy of the full report, please visit OIG’s Freedom of
Information Act page.

This special review was conducted in response to a request from Senators Charles E. Schumer
and Rand Paul concerning whether certain refugees, who are currently charged with terrorism-
related offenses, were incorrectly admitted into the United States and provided with government
benefits under the procedures of the United States Refugee Admissions Program in effect at the
time. The review looked at procedures for refugee security screening and admissions and the
provision of Department of State-funded benefits.

The OIG team held meetings and interviews with the Department of State’s Bureau of
Population, Refugees, and Migration (PRM) and Bureau of Consular Affairs, and the
Department of Homeland Security, and conducted document reviews. The OIG team did not
uncover any evidence that Department of State officials had access to derogatory information
that should have raised red flags about terrorist activities or connections in the cases under
review. Under standard operating procedures in effect at the time, no derogatory information
existed within the information sources that were consulted as part of the refugee clearance
process. While some discrepancies in the data the inspectors reviewed could indicate instances of
human error, the absence of those discrepancies would not have changed the outcome of the
admissions process in the cases under review.

Regarding Department of State-funded benefits, refugees typically receive travel loans through
the International Organization for Migration. Grants to help with basic living expenses during the
first few months of their transition into the United States are administered by nonprofit
organizations whose administrative expenses are also at least partially paid by Department of
State funds. All refugees are required to repay their travel loans for transportation to the United
States. However, there is no established or realistic means to recoup any of the other Department
of State-supplied funds used to directly or indirectly provide support to refugees, even if those
refugees are subsequently charged with terrorism-related offenses.

Officials from both the Department of Homeland Security and the Department of State stated
that, in recent years, the Department of Homeland Security has significantly enhanced security
screening procedures, further tightening the entry process for all refugees.




                                      UNCLASSIFIED
